HHS/OIG, Audit - "Review of Comprehensive Outpatient Rehabilitation
Facility Therapy Services Provided by Absolute Therapy, Inc.," (A-04-04-02010)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Comprehensive
Outpatient Rehabilitation Facility Therapy Services Provided by Absolute
Therapy, Inc.," (A-04-04-02010)
November 29, 2006
Complete Text of Report is available in PDF format (1.1 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether payments to Absolute Therapy, Inc. (Absolute) for physical therapy, speech-language pathology, and occupational therapy services were provided in accordance with Medicare reimbursement requirements. Absolute received $5,928 in unallowable payments associated with 20 sampled claims, which contained 246 services that did not meet Medicare reimbursement requirements because: services were rendered under unapproved or incomplete plans of care; documentation did not indicate that the plan of care was reviewed at least every 60 days; and documentation did not meet Medicare standards to support that services were actually provided.
We recommended that Absolute: (1) refund to the Medicare program the $414,712 in payments for services Absolute billed in 2002 that did not meet Medicare reimbursement requirements; (2) follow its policies and procedures for ensuring plans of care contain all required elements, for documenting that plans of care were reviewed at least every 60 days, and for documenting that services were actually provided; and (3) identify and submit adjusted claims for services provided subsequent to our audit period that did not meet Medicare reimbursement requirements. In written comments to our draft report, Absolute officials generally disagreed with our findings and recommendations. In view of issues Absolute raised in its written comments, we requested the program safeguard contractor (PSC) review 27 claims and we adjusted our findings and recommendations based on the results of the PSC’s reevaluation.